No

IN THE
SUPREME COURT OF THE UNITED STATES

Derrick Grant

— PETITIONER
(Your Name)
VS.

United State of America

RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
El Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
U.S. Court of Appeals for the Sixth Circuit
U.S. District Court for the eeritOrec4a.District of Ohio

teht+Ints Ts

13 Petitioner has not previously been - granted leave to proceed in forma,
pauperis in any other court.
CI Petitioner's affidavit or declaration in support of this motion is attached hereto.
13 Petitioner's affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
2 The appointment was made under the following provision of law.
, or

18 U.S.C. 3006A

0 a copy of the order of appointment is appended.

t,rLorti-e.

(Signature)

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: December 12, 2019

Ms. Anna Greve
Taft, Stettinius & Hollister
425 Walnut Street
Suite 1800
Cincinnati, OH 45202
Re: Case No. 19-3824, USA v. Derrick Grant
Originating Case No. : 4:16-cr-00332-1
Dear Counsel,
This confirms your appointment to represent the defendant in the above appeal under the
Criminal Justice Act, 18 U.S.C. § 3006A.
You must file your appearance form and order transcript within 14 days of this letter. The
appearance form and instructions for the transcript order process can be found on this court's
website. Please note that transcript ordering in CJA-eligible cases is a two-part process,
requiring that you complete both the financing of the transcript (following the district court's
procedures) and ordering the transcript (following the court of appeals' docketing
procedures). Additional information regarding the special requirements of financing and
ordering transcripts in CJA cases can be found on this court's website at
http://www.ca6.uscourts.govicriminal-justice-act under "Guidelines for Transcripts in CJA
Cases."
Following this letter, you will receive a notice of your appointment in the eVoucher
system. That will enable you to log into the eVoucher system and track your time and expenses
in that system. To receive payment for your services at the close of the case you will submit
your voucher electronically via eVoucher. Instructions for using eVoucher can be found on this
court's website. Your voucher must be submitted electronically no later than 45 days after the
final disposition of the appeal. No further notice will be provided that a voucher is
due. Questions regarding your voucher may be directed to the Clerk's Office at 513-564-7078.

Finally, if you become aware that your client has financial resources not previously disclosed
or is no longer eligible for appointed counsel under the Criminal Justice Act, please contact the
Clerk or Chief Deputy for guidance.
Sincerely yours,
s/Ken Loomis
Administrative Deputy
Direct Dial No. 513-564-7067
cc: Ms. Elizabeth Michelle Crook
Mr. Derrick Grant
Ms. Sandy Opacich
Ms. Sharday S. Swain

